<html>
<title> - OVERSIGHT HEARING ON POLICY AND OPERATIONAL ISSUES FACING ARLINGTON NATIONAL CEMETERY AND THE AMERICAN BATTLE MONUMENTS COMMISSION Thursday, March 30, 2006 U.S. HOUSE OF REPRESENTATIVES, SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS, COMMITTEE ON VETERANS' AFFAIRS, Washington, D.C. The Subcommittee met, pursuant to call, at 1:33 p.m., in Room 334, Cannon House Office Building, Hon. Jeb Bradley presiding. Present: Representatives Bradley and Buyer. MR. BRADLEY. Good afternoon everyone. This hearing will come to order. Chairman Miller had to return to Florida for a funeral, so I am assuming the chair today with the graces of our Chairman, who is here. We are meeting to receive testimony from representatives of Arlington National Cemetery and the American Battle Monuments Commission, ABMC. You may recall that last April the Subcommittee held an oversight hearing on the Department of Veterans Affairs' National Cemetery Administration. This</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                  OVERSIGHT HEARING ON POLICY AND
                OPERATIONAL ISSUES FACING ARLINGTON
                 NATIONAL CEMETERY AND THE AMERICAN 
                     BATTLE MONUMENTS COMMISSION

Thursday, March 30, 2006

U.S. HOUSE OF REPRESENTATIVES,
SUBCOMMITTEE ON DISABILITY ASSISTANCE AND
 MEMORIAL AFFAIRS,
COMMITTEE ON VETERANS' AFFAIRS,
Washington, D.C.

	The Subcommittee met, pursuant to call, at 1:33 p.m., in Room 334, Cannon 
House Office Building, Hon. Jeb Bradley presiding.
	Present:  Representatives Bradley and Buyer.

	MR. BRADLEY.  Good afternoon everyone.  This hearing will come to order.  
Chairman Miller had to return to Florida for a funeral, so I am assuming the 
chair today with the graces of our Chairman, who is here.
	We are meeting to receive testimony from representatives of Arlington 
National Cemetery and the American Battle Monuments Commission, ABMC.  You may 
recall that last April the Subcommittee held an oversight hearing on the 
Department of Veterans Affairs' National Cemetery Administration.  This hearing 
is the second part of the Subcommittee's cemetery oversight agenda.  Arlington 
National Cemetery is the nation's premier military cemetery.  Arlington is the 
final resting place of war heroes, former presidents, Supreme Court justices, 
astronauts, and other individuals who have contributed to the armed services and 
our nation.
	Last year, Arlington Cemetery conducted over 4,000 interments, and nearly 
2,600 inurnments.  In addition to welcoming millions of visitors annually, 
Arlington hosts many ceremonies which commemorate the service and sacrifice of 
men and women who served in the United States military.
	The American Battle Monuments Commission, an independent agency of the 
executive branch, was established in 1923 to commemorate and memorialize the 
sacrifice of nearly 125,000 of the nation's war dead and 94,000 servicemembers 
who are missing in action, or lost, or buried at sea.
	The Commission administers, operates, and maintains 24 permanent American 
military cemeteries; 35 federal monuments, memorials, and markers; and 4 non-
federal markers.  If you have seen the movie "Saving Private Ryan," then you 
have seen the ABMC cemetery at Normandy, France.  However, there are 23 other 
cemeteries that are also awe-inspiring.
	Since Ms. Berkley or Mr. Udall is not here for their opening remarks, I'm 
going to turn to the Chairman, Mr. Buyer, for any opening remarks that he may 
have, and then recognize Mr. Udall and Ms. Berkley when they arrive.
	MR. BUYER.  Thank you very much, Mr. Chairman.
	Mr. Metzler, and Brigadier General Nicholson, I just want to thank both of 
you.  You are stewards of our honored and sacred dead, and the manner in which 
you hold the high standards of dignity on behalf of the country, I want to thank 
you for that.
	Mr. Metzler, you've been pretty busy lately, and each time that I go over 
to Arlington, I also feel good about the reception that you give the visitors, 
but in particular the families.  I have found it to be very orderly, and people 
really know that they are at a very sacred place, and they just want to follow 
the rules, and follow the order.  What I have noticed is that you all handle 
that very, very well, and so I want to extend my complements to you.
	With that, I yield back.
	MR. BRADLEY.  Since Mr. Udall and Ms. Berkley are not here, let us proceed 
directly to the panel.  And with the forbearance of the minority, we will try to 
accommodate them when they arrive.  Thank you.
	We have one panel this afternoon.  Mr. John Metzler, Jr., is the 
Superintendent of Arlington National Cemetery.  Mr. Metzler served three years 
in the United States Army, including a tour in Vietnam where he was a helicopter 
crew chief.  He was appointed Superintendent of Arlington in 1991, a post his 
father held from 1951 to 1972.
	We also welcome Brigadier General John Nicholson, Secretary of the 
American Battle Monuments Commission.  General Nicholson, a graduate of West 
Point, had a distinguished career as an Airborne Ranger.
	Prior to his appointment at ABMC, General Nicholson served as the Under 
Secretary for Memorial Affairs at the Department of Veterans Affairs.
	Gentlemen, welcome.  We will hold our questions until each of you has 
testified.  Obviously, your full statement will be submitted and printed in the 
official record.
	Mr. Metzler, please begin.



STATEMENT OF JOHN C. METZLER, JR., SUPERINTENDENT,
	ARLINGTON NATIONAL CEMETERY, BRIGADIER GENERAL
	JOHN W. NICHOLSON, U.S. ARMY, RETIRED, SECRETARY,
	AMERICAN BATTLE MONUMENTS COMMISSION

STATEMENT OF JOHN C. METZLER, JR.

	MR. METZLER.  Good afternoon, Mr. Chairman, members of the other 
Committee.
	Thank you for this opportunity to testify before the Subcommittee in 
support of the Department of the Army's Cemetarial Operation Program at 
Arlington, and the Soldiers and Airmen's Home National Cemeteries.
	I am testifying today on behalf of the Secretary of the Army, who is 
responsible for the operation, maintenance, and oversight of these two national 
cemeteries.
	Arlington National Cemetery is our nation's premier military cemetery, and 
it is an honor for me to be here today to represent the cemetery.  On behalf of 
the Department of the Army, I would like to express our appreciation for the 
support that Congress has provided to us over the years.
	Arlington continues to be a very busy operation, with over 4000 interments 
in fiscal year 2005, and more than 2500 inurements in the Columbarium during the 
same period.
	It is important to proceed with the expansion projects for Arlington 
National Cemetery in a timely manner so that there will be no disruption for 
services for our deceased veterans and their families, and to relieve the 
significant crowding of our daily funeral services.  Significant crowding is 
already occurring, due to the ever shrinking land availability at Arlington, and 
the increased number of funerals.  This sometimes can compromise the dignity of 
the funerals by distracting the families at the ongoing services nearby, as well 
as the disruptions caused by the daily maintenance required to be performed at 
new grave sites.
	At present, we are completing land development 90, phase one, which is 
developing the last 40 acres within the cemetery on the old South Fort Myer 
property, along Route 110.  This project, when completed, will develop 26,000 
new grave sites.
	Phase two, which will start later this year, when completed will have a 
new boundary wall, and 5000 niches within this boundary wall for cremated 
remains.
	Also this year, we will begin construction of our eighth building at the 
Columbarium complex.
	Finally, I am happy to report to you that our visitation this year is in 
full operation.  We expect over 4 million visitors to tour the grounds at 
Arlington National Cemetery.  Thank you.
	[The statement of Mr. Metzler appears on p.11]

	MR. BRADLEY.  Mr. Nicholson, that buzzer means that the votes have begun 
but we have several minutes before we have to leave, so we will proceed as 
expeditiously as possible.  General Nicholson.

STATEMENT OF GENERAL JOHN W. NICHOLSON

	GENERAL NICHOLSON.  Mr. Chairman, members of the Subcommittee, thank you 
for inviting me to testify on behalf of the American Battle Monuments 
Commission.  Our Commission Chairman, General Fred Franks, regrets he could not 
attend today's session due to illness, but wishes to submit his testimony for 
the record.
	I would like to make a few opening remarks to highlight the Commission's 
mission, give you an opportunity to know what our scope of our operation, and to 
provide insight to the direction the Commission is headed.
	As Secretary, it is my responsibility to direct the Commission's 
operations to ensure that we, as a nation, continue to honor appropriately the 
service, achievements, and the sacrifices of America's armed forces, where they 
fought.  Since its creation in 1923, the Commission has served as a guardian of 
America's overseas commemorative cemeteries and memorials.  We are committed to 
preserving the future generations at 24 permanent memorial cemeteries, 25 
monuments, memorials, and markers around the world that honor America's war 
dead, missing in action, and those who fought at their side; and doing so in a 
manner befitting their achievements and sacrifices.
	Our inspiration comes from words written more than 70 years ago by our 
first Chairman, General of the Armies, John J. Pershing, who promised that "time 
will not dim the glory of their deeds."  Remaining faithful to Pershing's 
promise, and with a view to the future, we are focusing our energies and 
resources toward accomplishing four strategic goals.
	Number one, to develop, operate, maintain, and improve the Commission's 
facilities as the world's best commemorative sites.
	Two, to value and invest in each employee.
	Three, to have the Commission's commemorative sites recognized worldwide 
as inspirational and educational visitor destinations.
	And four, to make the Commission's business and resource management the 
best in government.
	Contributing directly toward accomplishment of our third strategic goal is 
the work the Commission has done since 2002 to design and construct an 
interpretive center at the Normandy American Cemetery in France.  This center 
will tell the story of the 9387 American soldiers buried in Normandy, and the 
1557 missing in action memorialized there.  Construction is progressing well, 
and we plan to open the center by early summer, 2007.
	As you travel abroad on Subcommittee business, we invite you to visit our 
commemorative sites, to see for yourselves the commitment our nation has made 
and continues to make toward maintaining our sacred trust to America's war dead, 
and to their families.  And we ask that you encourage your constituents to do 
likewise.
	The Commission's fiscal year 2007 appropriation request for 40.738 million 
support our work toward accomplishing our strategic goals, and continues our 
commitment for worldwide mission and responsibilities.  Our challenge is to 
sustain the high standards of excellence we have set in maintaining our 
commemorative sites, as shrines to America's war dead.  Concurrently, we plan to 
do a better job of telling the story of these uniquely splendid cemeteries and 
memorials.  They inspire patriotism.  They evoke gratitude.  And they teach 
lessons of history to all who visit. 
	We are grateful for the support we receive from the House.  The trust you 
place in us, and your understanding of our operational needs, ensures that we 
have sufficient resources, when we need them, to sustain our operations.
	I would like to close by introducing the members of my staff accompanying 
me today.  Brigadier General William Leszczynski, U.S. Army, retired, Executive 
Director and Chief Operations Officer; Guy Giancarlo, Director of Finance; Alan 
Gregory, Budget Officer; Tom Sole, Director of Engineering and Maintenance; and 
Mike Conley, Director of Public Affairs.
	Thank you, Mr. Chairman.  This concludes my opening statement.  I will be 
pleased to respond to your questions.
	[The statement of General Nicholson appears on p. 17]

	[The statement of General Franks appears on p. 20]

	MR. BRADLEY.  Thank you very much, General.  I am going to yield my time 
to the Chairman, Mr. Buyer.
	MR. BUYER.  Thank you very much, Chairman Bradley, for yielding.  I just 
have a question, Mr. Metzler.  Do you have any unfunded requirements right now 
with regard to the submission of the budget you just did for '07?
	MR. METZLER.  For '07?  Oh-seven, sir, will be a challenging year for us 
to meet with the changes [inaudible] upon us, so we are working very diligently 
-- 
	MR. BUYER.  Can you hit your microphone for me, please?
	MR. METZLER.  Excuse me.  Oh-seven will be a challenging year for us.  The 
constraints that we are trying to work within will make it very challenging for 
us to continue to maintain the high standards at Arlington Cemetery.  And right 
now, we are working to try to figure that out.
	MR. BUYER.  All right, let me read between the lines then.  I need for you 
to help me identify what the unfunded requirements are.  You know what it takes 
to run your business out there, and obviously you have sent some submissions in, 
and they gave you a budget number.  So tell me what the differential was.
	MR. METZLER.  Well, sir, if I could just go back for a little history 
here, if that is permitted.
	MR. BUYER.  Sure.
	MR. METZLER.  In fiscal year 2005, our budget was about $28 million.  
Fiscal year 2006, $32 million.  And our submission for fiscal year 2007 was $26 
million.  Now, granted, the submission for '06 included the major construction 
projects that we are currently working toward.
	The challenge we are going to have, sir, is the operation and maintenance 
of the cemetery; in other words, keeping everything that we have on track, and 
also to be able to continue to improve the infrastructure, to continue to bring 
new things to the cemetery as we develop and push the boundaries of the cemetery 
out at the same time.
	MR. BUYER.  All right.  To remove that challenge, what is your need?
	MR. METZLER.  My need, sir, is a challenge to continue to work with the 
administration to get that dollar amount to our construction projects, as well 
as our O&M projects, as we continue to meet the increase in costs that we are 
seeing right now, with each contract year.
	MR. BUYER.  All right, that is wonderful, but I want you to work with the 
legislative branch for a moment.  So tell me what your needs are.  I mean, if I 
can come in and work with the Chairman here, and propose working with the Armed 
Services Committee, and defense appropriators, and we are able to actually 
designate for Arlington, what am I supposed to designate?
	MR. METZLER.  Well, sir, it would be  --  if we could maintain a level 
that we had in '06, with a look at the increases proportionately for cost of 
living, that would keep our heads above water.
	MR. BUYER.  All right, what does that mean, cost-of-living?
	MR. METZLER.  Our '06 appropriations was about $32 million.
	MR. BUYER.  Yes.
	MR. METZLER.  And the increase that we would have across-the-board on 
different projects, I don't know that I have a dollar amount or a percentage 
right now, but you seem to be seeing at least a five percent to a 10 percent 
increase on our current contracts that we let each year.
	MR. BUYER.  All right.  We would like to work with you.  And whatever we 
can do to increase the level of funding for you, we are going to work to do 
that.
	MR. METZLER.  Thank you, sir.  I would look forward to working with your 
Committee.
	MR. BUYER.  I also want to thank you.  You are coming back here next week 
to testify once again before this Subcommittee in reference to the demonstration 
bill that Mr. Rogers and Mr. Reyes have introduced.
	MR. METZLER.  Yes, sir.
	MR. BUYER.  I want to thank you for that.  We are trying to block them at 
the pass.  I think the last thing we want is for these demonstrators to show up 
on your doorstep.  I know you have the procedures and all, and  --  I just want 
you to know that as the Committee has put this together, working with Mr. Reyes, 
we have, because these are federal lands with exclusive jurisdiction, we have 
sought to examine proportionality with regard to what level should these 
individuals be cited.  And so we became comfortable with a Class A misdemeanor 
with a $100,000 fine and one year in jail.  The Class A misdemeanor at the 
federal level is a lot tougher than it is at the state level, but to you, Mr. 
Metzler, and to Brigadier General Nicholson, we have narrowly tailored this to 
apply to our national cemeteries, so that we can set the standards of dignity, 
and grant grieving families their rights and liberties, because they should not 
be infringed by someone else's abnormal behavior.
	I want to thank you for coming over, not only today.  We will work on the 
budget numbers.  Let me thank General Nicholson, if you can extend also to your 
Commission members, let me thank you for upholding the high standards that our 
sacred heroes deserve.
	With that, Mr. Chairman, I yield back.
	MR. BRADLEY.  Thank you very much, Mr. Chairman.
	Before I close, I just want to make it clear to the minority, they may 
submit for the record opening statements or questions.  There will be questions 
that the Subcommittee will be submitting to you for the record, and we will 
await your answers.  I apologize for having to close this hearing so quickly, 
but we do have a vote.
	I would just close by saying that we have a sacred honor, and a duty, to 
commemorate the men and women of the United States military.  Whether it is in a 
VA national cemetery, or Arlington Cemetery, or an ABMC cemetery, the obligation 
remains the same.  I appreciate your time, your candor, and your thoughts today 
on what your organizations need to maintain and operate your facilities in a 
manner that reflects the service and sacrifice of those interred in these 
facilities.
	With nothing further, the hearing is adjourned.
	MINORITY COUNSEL.  Excuse me, Mr. Chairman.  Ms. Berkley and Mr. Udall do 
have statements for the record.
	MR. BRADLEY.  Without objection, they will be entered.  And if there are 
any questions they would like to submit, we are certainly happy to have them.
	[The statements of Ms. Berkley and Mr. Udall appear on p. 9 and p. 10 
respectively]

	MR. BRADLEY.  So seeing nothing else, the hearing is adjourned and I thank 
you again.
	[Whereupon, at 1:53 p.m. the Subcommittee was adjourned.]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

</pre></body></html>
